TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Mainframe Computer Performance
                           Is Being Actively Monitored,
                       but Defined-Service Agreements and
                       Software Licensing Can Be Improved



                                      September 23, 2011

                              Reference Number: 2011-20-074




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


MAINFRAME COMPUTER PERFORMANCE                         be unable to verify and ensure that the quality of
IS BEING ACTIVELY MONITORED, BUT                       service provided by its mission-critical tax
DEFINED-SERVICE AGREEMENTS AND                         processing systems will meet the expectations of
SOFTWARE LICENSING CAN BE                              its customers and stakeholders.
IMPROVED                                               TIGTA also determined that the IRS has an
                                                       opportunity to realize cost savings in its software
                                                       license costs that are dependent upon the
Highlights                                             capacity of its mainframe computers. If the IRS
                                                       had changed its basis for measuring the capacity
Final Report issued on                                 of its IBM mainframes prior to a hardware upgrade
September 23, 2011                                     in October 2010, it potentially could have saved
                                                       more than $580,000 in software license costs.
Highlights of Reference Number: 2011-20-074 to
                                                       WHAT TIGTA RECOMMENDED
the Internal Revenue Service Chief Technology
Officer.                                               TIGTA recommended that the Associate Chief
                                                       Information Officer, Enterprise Operations, include
IMPACT ON TAXPAYERS                                    specific and measurable qualitative and
The Internal Revenue Service (IRS) mainframe           quantitative metric measurements in the
computing environment provides the processing          defined-service agreements and establish a
for mission-critical tax processing systems. The       method of reporting actual performance, relative to
IRS can improve management of the capacity and         agreed-upon performance metric requirements, to
performance of its mainframe computers by              business unit application owners. TIGTA also
formalizing performance measures in its                recommended that, to realize cost savings in
defined-service agreements. There is also an           mainframe software contracts, the Chief
opportunity for the IRS to realize cost savings in     Technology Officer should change the method by
mainframe software contracts that are dependent        which mainframe capacity is measured and
upon the capacity of the International Business        attempt to renegotiate capacity-dependent
Machines Corporation (IBM) mainframe                   contracts to achieve more favorable terms for the
computers. If actions are not taken to renegotiate     IRS.
capacity-dependent software contracts, the IRS         In its response to the report, the IRS agreed with
could incur unnecessary software costs.                TIGTA’s recommendations. The IRS plans to
WHY TIGTA DID THE AUDIT                                1) develop and incorporate performance measures
                                                       into the defined services design, 2) establish a
This review is included in our Fiscal Year 2011        method of reporting actual performance
Annual Audit Plan and addresses the major              achievements relative to agreed-upon
management challenge of Modernization. The             performance metric requirements, 3) change the
overall objective of this review was to evaluate the   basis for measuring capacity of its IBM mainframe
efficiency and effectiveness of the capacity and       computers in future software upgrades, and
performance management of the IRS mainframe            4) attempt to revise or restructure mainframe
environment.                                           computer capacity-dependent software
                                                       agreements for maximum efficiency. The IRS
WHAT TIGTA FOUND                                       disagreed with TIGTA’s $580,358 outcome
The IRS has incorporated Information Technology        measure. TIGTA maintains the appropriateness of
Infrastructure Library best practice principles into   this measure.
its mainframe capacity management policies and
procedures. However, only four of 20 defined-
service agreements included measurable
performance metrics. Without a structure in place
to measure and report actual performance relative
to performance metric requirements, the IRS will
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                        September 23, 2011



 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Mainframe Computer Performance Is Being
                             Actively Monitored, but Defined-Service Agreements and Software
                             Licensing Can Be Improved (Audit #201120015)

 This report presents the results of our review of the efficiency and effectiveness of the capacity
 and performance management of the Internal Revenue Service’s (IRS) mainframe environment.
 This audit is included in our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
 Inspector General for Audit (Security and Information Technology Services) at (202) 622-5894.
                                     Mainframe Computer Performance Is Being
                                Actively Monitored, but Defined-Service Agreements
                                     and Software Licensing Can Be Improved




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Information Technology Infrastructure Library Best Practice
          Principles Have Been Incorporated Into the Capacity Management
          Policies and Procedures ................................................................................ Page 4
          Performance Measurement Requirements in Defined-Service
          Agreements Are Not Formally Established to Facilitate the
          Management and Reporting of Mainframe Performance ............................. Page 4
                    Recommendations 1 and 2: ................................................ Page 6

          The Internal Revenue Service May Incur Unnecessary Software
          Licensing Costs Related to Mainframe Hardware Capacity ......................... Page 6
                    Recommendations 3 and 4: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measure ................................................................ Page 14
          Appendix V – Internal Revenue Service Mainframe Computer
          Performance .................................................................................................. Page 16
          Appendix VI – Glossary of Terms ................................................................ Page 22
          Appendix VII – Management’s Response to the Draft Report ..................... Page 25
              Mainframe Computer Performance Is Being
         Actively Monitored, but Defined-Service Agreements
              and Software Licensing Can Be Improved




                   Abbreviations

CADE         Customer Account Data Engine
COBIT®       Control Objectives for Information Technology
DSA          Defined-Service Agreements
EOps         Enterprise Operations
IBM          International Business Machines Corporation
IRS          Internal Revenue Service
IT           Information Technology
ITIL®        Information Technology Infrastructure Library
MIPS         Millions of Instructions Per Second
MITS         Modernization and Information Technology Services
MSU          Millions of Service Units
SLA          Service-Level Agreement
                                  Mainframe Computer Performance Is Being
                             Actively Monitored, but Defined-Service Agreements
                                  and Software Licensing Can Be Improved




                                               Background

The Internal Revenue Service (IRS) mainframe1 computing environment provides the processing
for mission-critical tax processing systems, including the Business Master File, the Customer
Account Data Engine (CADE), the Integrated Data Retrieval System, and the Individual Master
File. The Enterprise Storage and Capacity Planning Branch in the Large Systems and Storage
Infrastructure Division of the Enterprise Operations (EOps) organization primarily manages
capacity and performance of the IRS mainframe computer environment. The Enterprise Storage
and Capacity Planning Branch has two mainframe sections, the International Business Machines
Corporation (IBM) platform section and the Unisys Corporation platform section.
The IBM mainframes reside at the Enterprise Computing Centers in Martinsburg, West Virginia
(Martinsburg Computing Center), and Memphis, Tennessee (Memphis Computing Center). The
mainframe platform at the Martinsburg Computing Center includes two IBM z/196 machines
that are organized into logical partitions that are paired and connected so they can cooperate as
one unit to provide workload balancing. The IBM environment at the Memphis Computing
Center consists of one IBM z/9 mainframe. The Memphis Computing Center z/9 mainframe,
scheduled to be upgraded to an IBM z/196 machine in Fiscal Year 2011, will provide
100 percent disaster recovery capability for the Martinsburg Computing Center mainframes, as
needed.
IBM mainframe processing costs are billed to the IRS based on the amount of processing
capacity, measured in Millions of Instructions per Second (MIPS), allocated to the mainframes.
To reduce software costs, the IRS has implemented IBM specialty processors, called zIIPs.
Work typically performed by the mainframe general processors is off-loaded to the specialty
processors, thus reducing the number of MIPS allocated to processing capacity and lowering
costs.
The IRS Unisys mainframe environment contains two Dorado 280 mainframe computers, with
one located at the Martinsburg Computing Center and one at the Memphis Computing Center.
Because vendor hardware support will be discontinued as of December 31, 2011, the IRS has
decided to upgrade the Dorado 280s to Dorado 780s during Fiscal Year 2011. While the new
machines have been purchased, an implementation date for the production workload has not been
announced.




1
    See Appendix VI for a glossary of terms.
                                                                                           Page 1
                             Mainframe Computer Performance Is Being
                        Actively Monitored, but Defined-Service Agreements
                             and Software Licensing Can Be Improved



IBM platform: workload, capacity allocation, and capacity utilization
The first Martinsburg Computing Center IBM mainframe processes the production workloads for
the Automated Collection System, the CADE, the Individual Master File, and the Business
Master File. It also provides development, test, and disaster recovery environments for other
applications. The second Martinsburg Computing Center IBM mainframe processes the
production workloads for the Business Master File, the CADE, the Individual Master File, and
the Web Currency and Banking Retrieval System. The Memphis Computing Center IBM
mainframe processes the production workload for the Integrated Collection System.
The capacity of the IRS mainframes is measured in MIPS. While the IRS mainframes run at
nearly 100 percent capacity during periods of peak processing, as the charts in Appendix V
demonstrate, this is not an area of concern. Best practices indicate that modern mainframe
systems are capable of running at high levels of utilization and that it is the performance of
higher priority workloads that should be managed, not utilization.
Figure 1 shows how the IBM mainframes performed from January 2009 to June 2011. For each
IBM mainframe (Martinsburg Computing Center #1, Martinsburg Computing Center #2, and
Memphis Computing Center) the number of MIPS allocated at the end of the year and the
average machine utilization for the year are shown.
                    Figure 1: IBM Mainframe Computer Performance
                                   January 2009 to June 2011
                         2009       2009        2010      2010        2011       2011 
                         MIPS      Average      MIPS     Average      MIPS      Average 
                       Allocated  Utilization Allocated Utilization Allocated  Utilization
     Martinsburg 
     Computing 
      Center #1          6,400         62%          7,500          57%         8,800          63% 
     Martinsburg 
     Computing 
      Center #2          6,100         60%          7,500          51%         8,000          61% 
      Memphis 
     Computing 
       Center             900          54%           900           43%          900           49% 
   Source: Obtained from IRS IBM Weekly Utilization Reports for Calendar Years 2009 through 2011.

A more detailed presentation of the IBM mainframe performance over the last 3 years is located
in Appendix V.




                                                                                                     Page 2
                            Mainframe Computer Performance Is Being
                       Actively Monitored, but Defined-Service Agreements
                            and Software Licensing Can Be Improved



Unisys platform: workload, capacity allocation, and capacity utilization
The Unisys mainframe at the Martinsburg Computing Center processes all of the centralized
Individual Taxpayer Information File workload for the 10 IRS campuses. The Unisys mainframe
at the Memphis Computing Center processes all of the centralized Business Taxpayer
Information File workload for the 10 campuses.
The Unisys mainframe at the Martinsburg Computing Center is configured to run with 950 MIPS
for normal weekday processing. For weekend processing, the Unisys mainframe at the
Martinsburg Computing Center borrows MIPS from the development and test environments to
increase capacity to 1,200 MIPS for managing the increased workload. The borrowed MIPS are
returned to their respective systems on Monday mornings to support weekday processing. The
Unisys mainframe at the Memphis Computing Center is configured to run with 675 MIPS for
normal weekday processing.
The Unisys mainframe environment is mature and stable although the transaction processing
workload has steadily increased. No significant changes have been made in processing capacity
for several years. Each of the Annual Capacity Reports for the Unisys mainframe environment
for Calendar Years 2008 through 2010 states there is sufficient capacity to manage the
processing workloads for the foreseeable future.
The IRS currently executes two primary production systems that process individual taxpayer
account data, respectively known as the Individual Master File and the CADE. The IRS is
currently undergoing a major development effort to develop and deploy CADE 2 in
January 2012 to replace the existing Individual Master File and CADE applications. The
CADE 2 is designed to provide state-of-the-art individual taxpayer account processing and
technologies to improve service to taxpayers and enhance IRS tax administration. Once
completed, the new modernization environment should allow the IRS to more effectively and
efficiently update taxpayer accounts, support account settlement and maintenance, and process
refunds on a daily basis, which will contribute to improved service to taxpayers. With the
transition from the CADE to the CADE 2, it is expected that 48 percent of the MIPS
(approximately 8,000) will be available to be repurposed to other applications.
This review was performed at the Modernization and Information Technology Services (MITS)
organization offices in New Carrollton, Maryland, and the Enterprise Computing Center in
Martinsburg, West Virginia, during the period January through June 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

                                                                                            Page 3
                            Mainframe Computer Performance Is Being
                       Actively Monitored, but Defined-Service Agreements
                            and Software Licensing Can Be Improved




                                Results of Review

Information Technology Infrastructure Library Best Practice
Principles Have Been Incorporated Into the Capacity Management
Policies and Procedures
The Information Technology Infrastructure Library (ITIL®) is a set of concepts and practices for
information technology (IT) service management. The ITIL focuses on the key service
management principles pertaining to service strategy, service design, service transition, service
operation, and continual service improvement. Within the service design principle, capacity
management is a key process.
The purpose of capacity management is to provide a point of focus and management for all
capacity and performance-related issues, relating to both services and resources, and to match the
capacity of the IT to the agreed-upon requirements of the business. A key success factor in
capacity management is ensuring that it is considered during an application’s design.
In September 2010, the Chief Technology Officer outlined a goal to have the MITS organization
implement ITIL best practices over the next several years. The MITS Process Re-Engineering
Executive Steering Committee governs the implementation of the ITIL. Responsibility for
implementing key ITIL concepts has been assigned to EOps executives, with an implementation
plan due in September 2011. We reviewed the capacity management policies and procedures
and determined that the EOps organization has incorporated ITIL best practice principles.

Performance Measurement Requirements in Defined-Service
Agreements Are Not Formally Established to Facilitate the
Management and Reporting of Mainframe Performance
The ITIL states that the primary purpose of the capacity management process is to identify and
understand IT services and their use of resources, working patterns, and peaks and troughs and to
ensure that the services meet their Service-Level Agreement (SLA) targets, i.e., to ensure that IT
services are performed as required. The focus is on managing service performance, as
determined by the performance requirements contained in the SLAs that were agreed upon with
their IRS business unit customers.
The Information Systems Audit and Control Association’s Control Objectives for Information
Technology (COBIT®) represents an authoritative, internationally accepted IT governance
control framework for use by business managers, IT professionals, and IT audit professionals.
The COBIT states that an organization should define and agree to SLAs for all critical IT

                                                                                           Page 4
                            Mainframe Computer Performance Is Being
                       Actively Monitored, but Defined-Service Agreements
                            and Software Licensing Can Be Improved



services based on customer requirements and IT capabilities. The SLAs should cover customer
commitments, service support requirements, quantitative and qualitative metrics for measuring
the service signed off on by the stakeholders, funding and commercial arrangements (if
applicable), and roles and responsibilities, including oversight of the SLA. Metrics that should
be considered include system availability, reliability, performance, capacity for growth, levels of
support, continuity planning, security, and demand constraints. The COBIT also recommends
that organizations continuously monitor specified service-level performance criteria and provide
reports on achievement of service levels in a format that is meaningful to the customers. The
monitoring statistics should be analyzed and acted upon to identify negative and positive trends
for individual services, as well as for services overall.
The Customer Relationships and Integration Division within the EOps organization is
responsible for managing and administering all EOps organization SLAs. Its stated mission is to
serve as a focal point for establishing relationships between the IRS business units (customers)
and the appropriate EOps division (service providers). The EOps organization eliminated the
need for individual applications to have SLAs. The SLAs for individual applications that were
previously in use were converted into 20 Defined-Service Agreements (DSA) or were merged
into a larger document called the EOps Service Standards Document. The EOps organization
uses the term DSA to refer to the industry generic term, SLA. The DSA describes the services
received from the service provider, and the EOps Service Standards Document describes how the
EOps organization (the service provider) will provide the services. The conversion of SLAs to
DSAs and a Service Standards Document was completed and will undergo an annual review.
During our review of the 20 DSAs, we found that the EOps organization is not consistently
including measurable performance metrics such as availability, reliability, performance, and
capacity in these agreements. Only 4 (20 percent) of the 20 DSAs contained any measurable
performance metrics. The remaining 16 (80 percent) documents contained no measurable
metrics. More specifically, one of the four DSAs that had measurable metrics was the Federal
Information Security Management Act Reportable Application Support Service DSA. It
contained a list of 160 additional applications, and only 51 (32 percent) of the applications
contained the measurable performance metrics for response times. EOps management explained
that the EOps organization has not included qualitative and quantitative metrics in its DSAs
because IRS business unit customers have not asked it to do so. Further, EOps management
indicated that their Customer Relationships and Integration Division does not have the technical
expertise needed to provide performance metric requirements.
Our review of mainframe performance monitoring determined the EOps personnel responsible
for capacity management of the IBM and Unisys mainframe environments are actively
monitoring mainframe performance against their own informal measures. The IBM capacity
managers create an annual capacity report, as well as various day-to-day application-specific
reports. The Unisys capacity managers create periodic reports on daily, weekly, and weekend
transaction processing.

                                                                                            Page 5
                            Mainframe Computer Performance Is Being
                       Actively Monitored, but Defined-Service Agreements
                            and Software Licensing Can Be Improved



In addition, the EOps Service Standards Document states that the EOps Customer Relationships
and Integration Division will provide measurable performance metrics for customer verification
of its quality of service. However, the Customer Relationships and Integration Division is not
reporting actual performance achievements against specific DSA performance requirements to
the EOps organization’s business unit customers.
If specific and measurable performance metric requirements are not documented and agreed
upon in the DSAs, then these documents cannot be effectively used to hold service providers to
the minimum level of service required by critical applications. Without a structure in place to
report actual performance achievements relative to performance metric requirements to
application owners, IRS management will be unable to verify and ensure that the quality of
service provided to its mission-critical tax processing systems will meet the expectations of its
customers and stakeholders.

Recommendations
Recommendation 1: The Associate Chief Information Officer, Enterprise Operations, should
include specific and measurable qualitative and quantitative metric requirements in DSAs that
can be used to define the quality of service required by EOps organization customers. In this
effort, quantitative metrics such as availability, reliability, performance, capacity for growth,
levels of support, continuity planning, security, and demand constraints should be considered.
       Management’s Response: The IRS agreed with this recommendation. The IRS is
       working to develop measures as they relate to the Mainframe Computing Defined
       Services. In accordance with the recommendation, the IRS will consider the categories
       mentioned in the defined services design.
Recommendation 2: The Associate Chief Information Officer, Enterprise Operations, should
establish a method of reporting actual performance achievements, relative to agreed-upon
performance metric requirements, to business unit application owners in a format that is useful
for customer verification of the EOps organization’s quality of service.
       Management’s Response: The IRS agreed with this recommendation. Enterprise
       Operations will establish a method of reporting actual performance achievements,
       relative to agreed-upon performance metric requirements, to business unit application
       owners in a format that is useful for customer verification of the EOps organization’s
       quality of service.

The Internal Revenue Service May Incur Unnecessary Software
Licensing Costs Related to Mainframe Hardware Capacity
The ITIL focuses on the key service management principles pertaining to service strategy,
service design, service transition, service operation, and continual service improvement. Within

                                                                                            Page 6
                            Mainframe Computer Performance Is Being
                       Actively Monitored, but Defined-Service Agreements
                            and Software Licensing Can Be Improved



the service design principle, supplier management is a key process. The supplier management
process ensures that suppliers and the services they provide are managed to support IT service
targets and business expectations. Two of the main objectives of the supplier management
process are: 1) to obtain value for the money spent with suppliers and on contracts and 2) to
negotiate and agree to contracts with suppliers and manage them through their life cycle.
The IRS measures the capacity of its mainframes in terms of MIPS. MIPS charts can be used for
various purposes, including: 1) to provide a metric against which capacity consumption can be
measured, 2) to provide capacity guidance when performing hardware upgrades within a
processor family, and 3) as a means to provide independent software vendors a machine capacity
with which to license and charge for software maintenance and one-time upgrade charges.
The license costs for the software products residing on the IRS mainframes are tied to mainframe
capacity, or the number of MIPS allocated to the machines. The IRS whitepaper titled
z/196 – Gartner MIPS and Capacity Upgrade Issues, issued by the IBM Capacity Management
Section, notes that there is an opportunity for the IRS to reduce its software license costs by
changing the measure used to calculate the capacity of its mainframes. While the IRS currently
uses MIPS, the IRS Capacity Management Branch recommends changing the measurement to
Millions of Service Units, or MSUs. The whitepaper indicates that IBM has reduced the MSU
rating for each family of z-series processors by about 10 percent for machines of equivalent
capacities.
In October 2010, the IRS upgraded its Martinsburg Computing Center mainframe computers
from the IBM z/9-series mainframes to the IBM z/196-series mainframes. Concerns over IBM
mainframe software licensing costs raised by the IRS Capacity Management Branch in its
whitepaper may not have been communicated to the stakeholders with the authority and
responsibility to renegotiate the relevant hardware and software contracts. Had the IRS made the
conversion from MIPS to MSUs as a basis for determining mainframe capacity prior to the IBM
mainframe upgrade, the IRS could have realized a cost savings of $580,358 in its software
licensing costs, using the 10 percent reduction estimate in the IRS whitepaper. Figure 2 shows
the software products where the IRS could have potentially realized savings in the licensing
agreements.




                                                                                          Page 7
                               Mainframe Computer Performance Is Being
                          Actively Monitored, but Defined-Service Agreements
                               and Software Licensing Can Be Improved



            Figure 2: Potential Mainframe Software License Cost Savings
                                                                Software          Potential Savings
                  Software \Vendor
                                                              Upgrade Costs       (10% of Upgrade Costs)
   IBM Software Relationship Offering                                  $41,608                 $4,161
   ASG Software Solutions                                              $44,746                 $4,475
   Catalog Recovery Plus                                             $129,725                 $12,973
   Computer Associates                                               $398,706                 $39,871
   Perfman                                                           $146,185                 $14,619
   SAS                                                               $644,813                 $64,481
   Vanguard                                                          $178,807                 $17,881
   Address Hygiene Software                                        $1,757,276                $175,728
   Mainframe Peripheral and Software Maintenance                   $2,461,692                $246,169
   Total                                                            $5,803,558               $580,358
  Note: The Total Potential Savings is greater than 10 percent due to rounding.
  Source: IRS contract documentation.

Approximately 8,000 MIPS currently allocated to the CADE will need to be repurposed when
the IRS transitions from the CADE to the CADE 2 in January 2012. The IRS indicated it would
establish a working group to coordinate decisions regarding managing the excess hardware
capacity. In addition, the IRS has started to make decisions regarding the renegotiation of
software license agreements that are dependent on hardware capacity. If these hardware
resources are not fully utilized, or actions are not taken to fully renegotiate capacity-dependent
software contracts, the IRS could incur unnecessary hardware and software costs.

Recommendations
Recommendation 3: The Chief Technology Officer should change the basis for determining
the capacity of its IBM mainframe computers from MIPS to MSUs for future hardware upgrades.
       Management’s Response: The IRS agreed with this recommendation. The EOps
       organization will partner with the Strategy and Planning Division to change the basis for
       measuring the capacity of its IBM mainframe computers and converting future software
       upgrades from MIPS to MSUs.
Recommendation 4: The Chief Technology Officer should review the mainframe computer
capacity-dependent software agreements and attempt to renegotiate these contracts to more
favorable terms for the IRS to potentially realize cost savings in mainframe software contracts.
       Management’s Response: The IRS agreed with this recommendation. Over the past
       2 years, the IRS has revised or restructured every mainframe software contract for
       maximum efficiency. The IRS has converted them to Treasury-wide vehicles where

                                                                                                    Page 8
                    Mainframe Computer Performance Is Being
               Actively Monitored, but Defined-Service Agreements
                    and Software Licensing Can Be Improved



possible with the exception of the IBM Software Relationship Offering which will be
restructured next fiscal year.
Office of Audit Comment: The IRS did not agree with the outcome measure related
to the use of alternative capacity measures in software negotiations for licensing costs. In
its response, the IRS stated that it agrees there is an opportunity to use MSUs in place of
MIPS to more effectively track capacity requirements in support of contract negotiations
for software licensing costs and to reduce software licensing costs. The IRS also stated it
does not believe there is any evidence that the vendors involved in past software licensing
agreements would have agreed to use the MSU method in determining licensing costs.
However, the TIGTA maintains the validity of this potential cost savings based on an
estimate provided by the IRS Whitepaper titled z/196 – Gartner MIPS and Capacity
Upgrade Issues, dated October 2010 and prepared by the IBM Capacity Management
Section.




                                                                                     Page 9
                                  Mainframe Computer Performance Is Being
                             Actively Monitored, but Defined-Service Agreements
                                  and Software Licensing Can Be Improved



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the efficiency and effectiveness of the capacity and
performance management of the IRS mainframe1 environment. To accomplish our objective,
we:
I.         Evaluated mainframe capacity and performance management policies, standards, and
           procedures.
           A. Searched for Federal guidance for capacity and performance management of
              mainframes.
           B. Reviewed industry best practices (ITIL and COBIT) for capacity and performance
              management of mainframes.
           C. Reviewed IBM and Unisys vendor guidance for capacity and performance
              management of mainframes.
           D. Determined whether IRS capacity and performance guidance reflects Federal,
              industry, and vendor best practice guidance.
           E. Determined whether IRS policies and procedures identify and define responsibilities
              for capacity and performance management.
           F. Determined whether the roles and responsibilities have been formally assigned and
              communicated.
II.        Evaluated mainframe service-level requirements.
           A. Reviewed service-level agreements for reasonableness and completeness for
              applications processed in the IRS mainframe production environment to determine
              whether:
               1. Definitive units of measure for mainframe capacity and performance have been
                  established.
               2. Minimum levels of service or performance have been identified and agreed to by
                  stakeholders.
           B. Reviewed current capacity and performance metrics regarding how well processors
              and applications are able to achieve stated mainframe service-level requirements.

1
    See Appendix VI for a glossary of terms.
                                                                                           Page 10
                           Mainframe Computer Performance Is Being
                      Actively Monitored, but Defined-Service Agreements
                           and Software Licensing Can Be Improved



III.   Evaluated the monitoring, reporting, and management of mainframe capacity and
       performance trends.
       A. Reviewed Calendar Years 2009, 2010, and 2011 Executive Steering Committee
          minutes and Business Performance Review reports relating to mainframe capacity
          and performance.
       B. Reviewed Calendar Years 2009, 2010, and 2011 annual capacity and performance
          plans.
       C. Reviewed Calendar Years 2010 and 2011 summary reports generated from IRS
          capacity and performance management reviews.
       D. Reviewed the current status of the IBM mainframe processor upgrade (zAAP/zIIP
          project).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the MITS organization’s policies and
procedures for effectively managing the performance and capacity of its mainframe computers.
We evaluated these controls by interviewing management and reviewing the EOps
organization’s policies and procedures and industry best practices such as COBIT and ITIL.




                                                                                       Page 11
                           Mainframe Computer Performance Is Being
                      Actively Monitored, but Defined-Service Agreements
                           and Software Licensing Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Carol Taylor, Audit Manager
Myron Gulley, Lead Auditor
Mary Jankowski, Senior Auditor
Daniel Oakley, Information Technology Specialist




                                                                                     Page 12
                          Mainframe Computer Performance Is Being
                     Actively Monitored, but Defined-Service Agreements
                          and Software Licensing Can Be Improved



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Director, Enterprise Computing Centers OS:CTO:EO:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 13
                                  Mainframe Computer Performance Is Being
                             Actively Monitored, but Defined-Service Agreements
                                  and Software Licensing Can Be Improved



                                                                                Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Potential; $580,358 (see page 6).

Methodology Used to Measure the Reported Benefit:
The software license costs for software products residing on the IRS mainframes1 are tied to the
mainframe capacity, or the number of MIPS allocated to the machines. The IRS whitepaper
titled z/196 – Gartner MIPS and Capacity Upgrade Issues, dated October 2010 and prepared by
the IBM Capacity Management Section, notes that there is an opportunity for the IRS to reduce
its software costs by changing the measure it uses to calculate the capacity of its mainframes.
While the IRS currently uses MIPS, the IBM Capacity Management Branch recommends
changing the measurement to MSUs. The whitepaper indicates that IBM has reduced the MSU
rating for each family of IBM z-series processors by about 10 percent for machines of equivalent
capacities.
In October 2010, the IRS upgraded its Martinsburg Computing Center mainframe computers
from the IBM z/9-series mainframes to the IBM z/196-series mainframes. Had the IRS made the
conversion from MIPS to MSUs as a basis for determining mainframe capacity prior to its
mainframe upgrade, the IRS could have realized a cost savings of $580,358 in its software
licensing costs using the 10-percent reduction estimate in the IRS whitepaper. Figure 1 provides
the calculation for the amount of potential software cost savings.




1
    See Appendix VI for a glossary of terms.
                                                                                         Page 14
                  Mainframe Computer Performance Is Being
             Actively Monitored, but Defined-Service Agreements
                  and Software Licensing Can Be Improved



    Figure 1: Calculation of Potential Software Cost Savings

                  Software \Vendor                Potential Savings
                                                 (10% of Upgrade Costs)

 IBM Software Relationship Offering                            $4,161
 ASG                                                           $4,475
 Catalog Recovery Plus                                        $12,973
 Computer Associates                                          $39,871
 Perfman                                                      $14,619
 SAS                                                          $64,481
 Vanguard                                                     $17,881
 Address Hygiene Software                                    $175,728
 Mainframe Peripheral and Software Maintenance               $246,169
 Total                                                       $580,358
Source: IRS contract documentation.




                                                                          Page 15
                                  Mainframe Computer Performance Is Being
                             Actively Monitored, but Defined-Service Agreements
                                  and Software Licensing Can Be Improved



                                                                                        Appendix V

         Internal Revenue Service Mainframe Computer
                         Performance

The following figures show how the IRS IBM mainframes1 performed from January 2009 to
June 2011 (the horizontal axis on each chart) with the total number of MIPS available to the
machine (the vertical axis on each chart) as the basis for measurement. Figure 1 shows that in
Calendar Year 2009, the Martinsburg Computing Center IBM mainframe #1 was initially
allocated 5,2002 MIPS, with upgrades to 6,400. It had a Calendar Year 2009 average weekly
utilization of 62 percent of capacity. In Calendar Year 2010, the MIPS were upgraded to
7,500 MIPS. It had a Calendar Year 2010 average weekly utilization of 57 percent of capacity.
In Calendar Year 2011, it was allocated 8,800 MIPS and had an average utilization of 63 percent
of capacity.




1
    See Appendix VI for a glossary of terms.
2
    For reporting purposes, all MIPS allocations are rounded to the nearest 100 MIPS.
                                                                                             Page 16
                             Mainframe Computer Performance Is Being
                        Actively Monitored, but Defined-Service Agreements
                             and Software Licensing Can Be Improved



  Figure 1: Martinsburg IBM Mainframe #1 – Capacity and Performance Trends




Source: Obtained from IRS IBM Weekly Utilization Reports for Calendar Years 2009 through 2011.

Figure 2 shows that in Calendar Year 2009, the IBM Martinsburg Computing Center
mainframe #2 was initially allocated 5,200 MIPS, with upgrades to 6,100 MIPS. It had a
Calendar Year 2009 average weekly utilization of 60 percent of capacity. In Calendar
Year 2010, the MIPS were upgraded to 7,500 MIPS. It had a Calendar Year 2010 average
weekly utilization of 51 percent of capacity. In Calendar Year 2011, 8,000 MIPS were allocated,
and had an average weekly utilization of 61 percent of capacity.




                                                                                                 Page 17
                             Mainframe Computer Performance Is Being
                        Actively Monitored, but Defined-Service Agreements
                             and Software Licensing Can Be Improved



  Figure 2: Martinsburg IBM Mainframe #2 – Capacity and Performance Trends




Source: Obtained from IRS IBM Weekly Utilization Reports for Calendar Years 2009 through 2011.

Figure 3 shows that in Calendar Year 2009, the IBM mainframe at the Memphis Computing
Center was allocated 900 MIPS and had an average weekly utilization of 54 percent of capacity.
It had an average weekly utilization of 43 percent of capacity in Calendar Years 2010 and
49 percent in 2011. The Memphis Computing Center mainframe processes the production
workload for the Integrated Collection System and is the disaster recovery computer for the
Martinsburg Computing Center IBM mainframes.




                                                                                                 Page 18
                              Mainframe Computer Performance Is Being
                         Actively Monitored, but Defined-Service Agreements
                              and Software Licensing Can Be Improved



       Figure 3: Memphis IBM Mainframe – Capacity and Performance Trends




Source: Obtained from IRS IBM Weekly Utilization Reports for Calendar Years 2009 through 2011.

Figures 4 and 5 provide a snapshot view of the Unisys production mainframes’ capacity and
performance during one processing cycle of the 2011 Filing Season.




                                                                                                 Page 19
                               Mainframe Computer Performance Is Being
                          Actively Monitored, but Defined-Service Agreements
                               and Software Licensing Can Be Improved



     Figure 4: Martinsburg Unisys Mainframe Utilization, February 14–20, 2011




Source: Obtained from IRS Unisys MIPS Utilization Report for February 14-20, 2011.




                                                                                     Page 20
                               Mainframe Computer Performance Is Being
                          Actively Monitored, but Defined-Service Agreements
                               and Software Licensing Can Be Improved



       Figure 5: Memphis Unisys Mainframe Utilization, February 14–20, 2011




Source: Obtained from IRS Unisys MIPS Utilization Report for February 14-20, 2011.




                                                                                     Page 21
                      Mainframe Computer Performance Is Being
                 Actively Monitored, but Defined-Service Agreements
                      and Software Licensing Can Be Improved



                                                                      Appendix VI

                       Glossary of Terms

     Term                    Definition
Application             A software program hosted by an information system.

Automated Collection    A telephone contact system through which telephone
System                  assistors collect unpaid taxes and secure tax returns from
                        delinquent taxpayers who have not complied with previous
                        notices.

Business Master File    The IRS database that consists of Federal tax-related
                        transactions and accounts for businesses. These include
                        employment taxes, income taxes on businesses, and excise
                        taxes.

Business Taxpayer       Area of the IRS tax information database that contains
Information File        information from business taxpayer accounts.

Campus                  The data processing arm of the IRS. The campuses process
                        paper and electronic submissions, correct errors, and
                        forward data to the Computing Centers for analysis and
                        posting to taxpayer accounts.

Capacity management     The discipline that ensures IT infrastructure is provided at
                        the right time in the right volume at the right price, and
                        ensuring that IT is used in the most efficient manner. This
                        involves input from many areas of the business to identify
                        what services are (or will be) required, what information
                        technology infrastructure is required to support these
                        services, what level of contingency will be needed, and what
                        the cost of this infrastructure will be.




                                                                                 Page 22
                       Mainframe Computer Performance Is Being
                  Actively Monitored, but Defined-Service Agreements
                       and Software Licensing Can Be Improved



     Term                     Definition

Customer Account Data    The foundation for managing taxpayer accounts in the IRS
Engine                   modernization plan. It will consist of databases and related
                         applications that will replace the IRS’s existing Master File
                         processing system and will include applications for daily
                         posting, settlement, maintenance, refund processing, and
                         issue detection for taxpayer tax account and return data.

Customer Account Data    An IRS application that will replace the existing Individual
Engine 2                 Master File and CADE applications. CADE 2 is designed to
                         provide state-of-the-art individual taxpayer account
                         processing and technologies to improve service to taxpayers
                         and enhance IRS tax administration.

Federal Information      United States legislation that defines a comprehensive
Security Management      framework to protect government information, operations,
Act                      and assets against natural or man-made threats.

Filing Season            The period from January 1 through mid-April when most
                         individual income tax returns are filed.

Fiscal Year              A 12-consecutive-month period ending on the last day of
                         any month, except December. The Federal Government’s
                         fiscal year begins on October 1 and ends on September 30.

Hardware                 The physical components of an information system.

Individual Master File   The IRS database that maintains transactions or records of
                         individual tax accounts.

Individual Taxpayer      Area of the Individual Master File database that contains
Information File         information from individual taxpayer accounts.

Integrated Collection    An information management system designed to improve
System                   revenue collections by providing revenue officers access to
                         the most current taxpayer information, while in the field,
                         using laptop computers for quicker case resolution and
                         improved customer service.



                                                                                  Page 23
                         Mainframe Computer Performance Is Being
                    Actively Monitored, but Defined-Service Agreements
                         and Software Licensing Can Be Improved



     Term                        Definition

Integrated Data            IRS computer system capable of retrieving or updating
Retrieval System           stored information. It works in conjunction with a
                           taxpayer’s account records.

Logical Partition          The division of a computer’s memory and storage into
                           multiple sets of resources so that each set of resources can
                           be operated independently with its own operating system
                           and applications.

Mainframe                  A powerful, multiuser computer capable of supporting many
                           hundreds of thousands of users simultaneously.

Platform                   The computer architecture and equipment using a particular
                           operating system.

Processor                  A part of a computer, such as the central processing unit,
                           that performs calculations of data and other logical
                           functions.

Software                   Computer programs and associated data that may be
                           dynamically written or modified during execution.

Web Currency and           An online database that contains Bank Secrecy Act
Banking Retrieval          information. IRS field agents as well as local, State, and
System                     Federal law enforcement agencies access the database for
                           research in tax cases, tracking money-laundering activities,
                           investigative leads, intelligence for the tracking of currency
                           flows, corroborating information, and probative evidence.




                                                                                     Page 24
            Mainframe Computer Performance Is Being
       Actively Monitored, but Defined-Service Agreements
            and Software Licensing Can Be Improved



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 25
     Mainframe Computer Performance Is Being
Actively Monitored, but Defined-Service Agreements
     and Software Licensing Can Be Improved




                                                     Page 26
     Mainframe Computer Performance Is Being
Actively Monitored, but Defined-Service Agreements
     and Software Licensing Can Be Improved




                                                     Page 27
